HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Minnesota," (A-07-02-03015)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross
Blue Shield of Minnesota," (A-07-02-03015)
February 21, 2003
Complete Text of Report is available in PDF format
(656 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review was to determine the allowability of pension costs
claimed for Medicare reimbursement for Fiscal Years (FYs) 1987 through 1999.
For FYs 1987 through 1999, we determined that Blue Cross Blue Shield of Minnesota
(Minnesota) over claimed Medicare pension costs.   During this period,
the allowable Medicare pension costs were $7,108,225.  However, Minnesota
claimed pension costs of $7,658,308 for Medicare reimbursement.  As a result,
Minnesota over claimed pension costs by $550,083.  This over claim of pension
costs was the result of Minnesota basing their pension cost calculations on
incorrect asset values.  We recommended Minnesota remit $550,083 to the
Federal Government.  Minnesota agreed with our finding and recommendation.